                                CLOSEOUT FOR M-92040014

                        1992
                        OIG




                  The coniplainant alleged that be had shown the subject his dissertation and a
    manuscript of one of his papers two years prior to her submission of her NSF proposal and that
    material from these documents appeared in her proposal. The complainant did not provide the
    title of his manuscript with his allegation.

             When the complainant notified the program director of this allegation, the complainant
,   indicated that he would make a copy of the manuscript that he alleged the subject had seen prior
    to submission of her NSF proposal. The program director told us he had never received a copy
    of the manuscript. When OIG contacted the co~nplainantto request additional infonnation
    including copies of his manuscript and dissertation, the complainant explained that he was
    reluctant to provide any additional infonnation because he feared possible retaliation by the
    subject's spouse who was an editor for a professional journal to which the complainant planned
    to submit papers. He was concerned that, if his allegation of misconduct in science becaiile
    known to the subject or her spouse, either might guess he had made it, and, as a result, his
    ability to publish papers in the journal might be jeopardized. In response to his concern, OIG
    offered the complainant confidential source status and encouraged him to give us copies of his
    manuscript and dissertation marked to indicate the basis for his allegation. After eight months
    he still had not provided any additional infonnation.

            OIG reviewed the subject's proposal. As a part of her submitted proposal package, the
    subject included a copy of a manuscript that she co-authored with a colleague. OIG noted that
    both the subject's proposal and her co-authored manuscript referenced a manuscript by the
    complainant. The subject's co-authored manuscript describes the complainant's work as closest
    to their own.

           OIG attempted unsuccessfully to identify the complainant's manuscript and whether it had
    been published.

           Over a two-year period, the complainant has not provided any assistance i n clarifying the
    nature of his allegation. He did not specify whether his allegation was plagiarism, either
    verbatim copying or theft of a n idea, or failt~reto cite his work in the sut~ject'sproposal. He

                                              Page I of 2                                     92- 16
                             CLOSEOUT FOR M-92040016
has failed to provide the title of his manuscript and the part of his dissertation which are the
bases for his allegation. Without his information, resolution of this matter would require a broad
and undirected search that is beyond the resources of OIG.

       This case was closed.


cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 2 of 2
